LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 22, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-930: CIC SERVICES, LLC V. INTERNAL REVENUE SERVICE, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the National
Federation of Independent Business Small Business Legal Center, Global Business
Alliance, Silicon Valley Tax Directors Group, Information Technology Industry Council,
National Foreign Trade Council, the Cato Institute, and Reason Foundation as Amici
Curiae in the case referenced above contains 7,734 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 22nd day of July 2020.

